                                                   ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Compliance with Davis-Bacon Act Requirements




Report No.: ROO-ROA-MOA-1022-2010                  October 2010
                    OFFICE OF
                    INSPECTOR GENERAL
                    U.S.DEPARTMENT OF THE INTERIOR

                                                                                          OCT   ~    0 2010 


    To:              Chris Henderson
                     Senior Advisor to the Secretary for Economic Recovery and Stimulus

    From:       ~t{ {;o~
                     Assistant Inspector General for Recovery Oversight

    Subject:         Recovery Oversight Advisory - Compliance with                    Davis~ Bacon   Act Requirements
                     (ROO-ROA-MOA-l 022-20 10)

        This advisory informs you of our efforts to ensure that bureaus within the U.S.
Department of the Interior (001) are in compliance with requirements of the Davis-Bacon Act,
that prevailing wages are paid on Federally-funded construction projects. It is part of our
ongoing efforts to oversee and ensure the accountability of funding appropriated to DOl in the
American Recovery and Reinvestment Act of2009 (Recovery Act).

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions 001 will implement to meet our recommendation, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation.

        We will post this advisory on our Web site (www.doioig.gov/recovery/) and
Recovery.gov. Information contained in this advisory may also be included in our semiannual
reports to Congress. Please contact me if you have any questions.

"Background and Findings

       We performed a limited review of financial assistance agreements (grants and
cooperative agreements) and contracts within the Bureau of Reclamation (USBR), National Park
Service (NPS), the U.S. Fish and Wildlife Service (FWS) and the U.S. Geological Survey
(USGS) and noted issues with Davis-Bacon Act compliance.

        Under Section 1606 of the Recovery Act, "all laborers and mechanics employed by
contractors and subcontractors on projects funded directly by or assisted in whole or in part by
and through the Federal Government pursuant to this Act shall be paid wages at rates not less
than those prevailing on projects of a character similar in the locality as determined by the
Secretary of Labor in accordance with subchapter IV of chapter 31 of title 40, United States
Code.'" It is the responsibility of Federal agencies, in this case 001, to ensure that Davis-Bacon
Act requirements are met. In accordance with the Davis-Bacon Act requirements :



I   The American Recovery and Reinvestment Act of 2009. Public Law No, 111-5, § 1606.


                                         Recovery Oversight Office I Washington, DC
         Federal agencies directly contracting for construction work using ARRA funds must
         ensure that bid solicitations and resulting covered contracts contain Davis-Bacon labor
         standards and wage determinations in accordance with the Federal Acquisitions
         Regulations (FAR). . . In addition, Federal agencies must ensure that recipients of
         assistance under ARRA require contractors and subcontractors to pay laborers and
         mechanics employed by contractors on ARRA-assisted construction projects at least the
         prevailing wages as determined under the [Davis-Bacon Act].2

        We observed instances where contracting and grants officers and their respective
technical representatives were not properly monitoring their contracts/grants to ensure
compliance with Davis-Bacon Act requirements. We specifically noted examples in a USBR
cooperative agreement where appropriate wage determinations were not outlined in the grant
agreement. At NPS, we observed a situation where wage categories and wage rates paid did not
match the Davis-Bacon Act requirements provided in the contract. In the FWS cooperative
agreement that we reviewed, we found an instance of lack of control and oversight in that the
grants officer did not ensure that the recipient submitted certified payrolls.

Table A

Bureau          Award                                                 Discrepancy
             Cooperative
             Agreement
                                      Appropriate wage determinations outlined in grant agreement did
USBR         #R09AC40R01
                                       not match those submitted on the certified payroll.
             $7,160,520
             Contract                 Appropriate wage determinations outlined in contract did not
             #N4800090625              match those submitted on the certified payroll.
NPS
                                      Electricians on the contract were paid below the Davis-Bacon Act
             $42,781                   wage rate.
             Contract #
             I4800090624              Appropriate wage determinations outlined in contract did not
NPS
                                       match those submitted on the certified payroll.
             $65,900.00
             Cooperative
             Agreement
                                      Grants officer did not ensure the recipient submitted certified
FWS          #40181RJ008
                                       payrolls.
             $600,000
             Contract                 Appropriate wage determinations outlined in contract did not
             #G10PC00118               match those submitted on the certified payroll.
USGS
                                      Over half of the certified payrolls examined were not signed. As
             $741,856                  of September 15, 2010, they have been signed and submitted.


2
 All Contract Agencies of the Federal Government and the District of Columbia, Memorandum No. 207, U.S. Department of
Labor; May 29, 2009, http://www.dol.gov/whd/recovery/AAM207.pdf.


                                                                                                                        2
Recommendations

        We recommend that DOI:

        1.	 Verify that contracting and grants officers are monitoring compliance with the
            requirements of the Davis-Bacon Act, as applicable to contracts and financial
            assistance agreements funded by the Recovery Act.

        2.	 Ensure each bureau resolves the discrepancies noted in Table A.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary – Policy, Management, and Budget
        Acting Director, Office of Financial Management
        Director, Office of Acquisition and Property Management
        Departmental GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                                             3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office

           of Inspector General staff, Departmental

            employees, and the general public. We 

               actively solicit allegations of any

           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report

               allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
